Audit Report




OIG-11-012
SAFETY AND SOUNDNESS: Failed Bank Review of Williamsburg
First National Bank
November 3, 2010




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            November 3, 2010


            OIG-11-012

            MEMORANDUM FOR JOHN WALSH
                           ACTING COMPTROLLER OF THE CURRENCY

            FROM:                 Jeffrey Dye /s/
                                  Director, Banking Audits

            SUBJECT:              Failed Bank Review of Williamsburg First National Bank


            This memorandum presents the results of our review of the failure of Williamsburg
            First National Bank (Williamsburg), of Kingstree, South Carolina. Williamsburg was
            established in 1958 as Williamsburg State Bank and converted to a national bank in
            1966. The bank operated five offices in Kingstree and Florence, South Carolina,
            and was the sole-bank subsidiary of WFNB Bankshares, a privately held company,
            located in Kingstree, South Carolina. The Office of the Comptroller of the Currency
            (OCC) closed Williamsburg and appointed the Federal Deposit Insurance
            Corporation (FDIC) as receiver on July 23, 2010. As of March 31, 2010, the bank
            had $139.3 million in total assets. FDIC estimated that the loss to the Deposit
            Insurance Fund is $8.8 million.

            Because the loss to the Deposit Insurance Fund is less than $200 million, as set
            forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
            review of the failure of Williamsburg that was limited to (1) ascertaining the
            grounds identified by OCC for appointing the FDIC as receiver and (2) determining
            whether any unusual circumstances exist that might warrant a more in-depth
            review of the loss. In performing our review we (1) examined documentation
            related to the appointment of FDIC as receiver, and (2) interviewed an OCC
            problem bank specialist.

            We conducted this performance audit in September 2010 in accordance with
            generally accepted government auditing standards. Those standards require that
            we plan and perform the audit to obtain sufficient, appropriate evidence to provide
            a reasonable basis for our findings and conclusions based on our audit objectives.
            We believe that the evidence obtained provides a reasonable basis for our findings
            and conclusions based on our audit objectives.
OIG-11-012
Page 2

Causes of Williamsburg’s Failure
The primary causes of Williamsburg’s failure were (1) its aggressive loan growth
strategy that focused on commercial real estate (CRE) loans concentrated in eastern
South Carolina and (2) an ineffective board and management that did not implement
internal controls over the lending function. For example, Williamsburg did not have
proper segregation of duties in the processing of its loans and allowed construction
loan draws without proper inspections and oversight of the appraisal process. These
inadequacies allowed a former loan officer to originate poor-quality loans that
ultimately constituted over 75 percent of the criticized loans in the bank’s portfolio. In
2009 and 2010, the combination of aggressive growth, loan concentrations, weak
oversight, and weak credit risk management caused asset quality to deteriorate
significantly. Loan losses significantly diminished earnings and capital levels, which
ultimately led to Williamsburg’s failure.


Conclusion
Based on our review of the causes of Williamsburg’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
the bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated it agreed with our conclusion as to the causes of
Williamsburg’s failure and that it had no concerns with our determination that an in-
depth review of the bank’s failure was not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-0384 or
Theresa Cameron, Audit Manager, at (202) 927-1011.


Attachments
         OIG-11-012

       Attachment 1
Management Response
                                                   OIG-11-012

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
